                            Closeout for M99030010

    In August 1999, a n NSF Division Director' told us that a co-PI2 of an NSF
award3 felt he was inappropriately denied the PI role.4 We contacted the co-PI
who was surprised we knew of this matter and told us his University was
already looking into the matter. A University administrators told us that the
University had asked a faculty member to look into the matter. The
Administrator also thought the issue was more of grant management than
misconduct in science. We thought it possible that misconduct-in-science
issues might have been present, so we asked to be kept informed of the
University's conclusions.
    The University's inquiry report concluded that no investigation was
warranted and no official action should be taken. It further concluded that it
was appropriate for the current PI to remain PI although the co-PI had initiated
an earlier research collaboration on this project that led to the current award.
The inquiry report noted that it was not possible to determine if the change in
PI had been appropriately carried out. Both the Administrator and the Provost
agreed with those conclusions.
    While there may be disagreements about who should have been PI, we
agree that this is a matter of grant management best addressed by the
University rather than by OIG. NSF allows the grantee to select the PI of its
proposals and the grantee has full responsibility for the management of the
project. A s long a s NSF approves of the choice of PI, and it did in this instance,
that choice is the University's perogative. This inquiry is closed and no further
action will be taken on this case.

cc: Investigations, IG




    (redacted).
    (redacted).
  3 (redacted).
    (redacted).
  5 (redacted).




                                    Page 1 of 1
